AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES

No.
MICHAEL RICHARDS,
Petitioner,
Vv.
COMMONWEALTH OF PENNSYLVANIA,
Respondent.

I, Frederick W. Wright, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:

lam retained by:
BURTON A. ROSE, ESQ.
1731 Spring Garden Street
Philadelphia, PA 19130
(215) 564-5550
barose@baroselaw.com

Attorney for Petitioner

On this 29™ day of July 2019 I deposited three copies of the Petition for Writ of
Certiorari, with the United States Post Office to mail priority to the following:

Lawrence Jonathan Goode, Esq.
Philadelphia District Attorney’s Office
3 S Penn Sq

Philadelphia, PA 19107

Filing to the Court has been perfected on the same date as above.

/s/ Frederick W. Wright

FREDERICK W. WRIGHT

Wright Appellate Services, LLC

1015 Chestnut Street, 517 Jefferson Building

Philadelphia, PA 19107

(215) 733-9870*FAX (215) 733-9872*(800) 507-9020

Email address: appealfww@aol.com; website: www.wrightappellate.com
